App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------

No. 18-60455
-----------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ALBERT DIAZ, M.D.,
Defendant - Appellant
-----------------------------------------------------------------------

Appeals [sic] from the United States District Court
for the Southern District of Mississippi
USDC No. 2:17-CR-31-1
-----------------------------------------------------------------------

(Filed Sept. 13, 2019)
Before: STEWART, Chief Judge, and JONES and
OWEN, Circuit Judges.
PER CURIAM:*
Following a five-day jury trial, Albert Diaz was
convicted on various counts of healthcare fraud, distribution of controlled substances, and obstruction of
* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
justice. He was sentenced to 42 months of imprisonment and ordered to pay more than $3 million in restitution. He now appeals his convictions and the
restitution order. We affirm.
I.

Factual & Procedural Background

In October 2014, Gerald Schaar, a pharmaceutical sales representative for Advantage Pharmacy1
(“Advantage”), approached Albert Diaz, a practicing
physician with clinics in Biloxi and Ocean Springs,
Mississippi, and asked Diaz to write prescriptions for
specific compounded medications. The prescriptions
would be written to patients whose personal identification information was provided to Schaar by Randy
Thomley, an employee of a marketing company for Advantage. Diaz agreed to write the prescriptions with
the knowledge that Schaar would receive a commission
when each prescription claim was paid by the health
care benefit administrator. The primary benefit administrator was Tricare, a Department of Defense health
care program providing coverage to members of the
military and their families. From October 2014 through
September 2015, Diaz wrote multiple prescriptions
that resulted in the filing of 573 false claims, totaling
more than $2.3 million in payments from Tricare and
over $1 million in payments from private insurance
companies. The fraudulent prescriptions Diaz wrote
included prescriptions for an ointment containing
1

Advantage was a compounding pharmacy that operated out
of Hattiesburg, Mississippi.

App. 3
ketamine, a Schedule III controlled substance used for
pain.
In December 2015, Diaz received an audit letter
from Tricare, inquiring about specific claims related to
the prescriptions he had written for Schaar. After receiving the letter, Diaz asked Schaar to arrange for him
to see the patients who had received the prescriptions
he had written so that he could create a medical chart
showing that he had examined them. In January 2016,
Diaz and Schaar traveled to Hattiesburg, Mississippi
on a Saturday to meet with Thomley and make house
calls to see the patients. Diaz then created medical
charts with either backdated or omitted dates to conceal the fact that he had not examined the patients before writing the prescriptions.2
Over the course of 2016 and 2017, Diaz made multiple false statements to federal agents during the investigation of the offense to conceal his involvement.
In September 2016 and January 2017, investigators
recorded two conversations between Diaz and Schaar,
who was cooperating with investigators. In the recordings Diaz admitted that he had prescribed the compounded medications without first seeing the patients
and had subsequently engaged in a coverup to escape
culpability.

2

Prior to creating the backdated charts, Diaz had provided
blank charts to Schaar, which Schaar gave to Thomley to gather
the information contained in the medical files submitted in support of the false claims.

App. 4
In October 2017, a federal grand jury charged Diaz
with multiple counts of health care and wire fraud,
controlled substance (i.e., ketamine) distribution and
dispensing, and obstruction of justice, including conspiracy offenses. The week before trial, Diaz sought a
third continuance on grounds that the government had
belatedly disclosed discovery and impeachment material related to Schaar. The district court denied the motion and the case proceeded to trial.
Following a five-day jury trial, Diaz was convicted
of conspiracy to commit health care and wire fraud,
substantive wire fraud, conspiracy to distribute a controlled substance, distribution of controlled substances,
conspiracy to obstruct justice by falsifying medical records, and multiple substantive obstruction of justice offenses. Although Diaz had been on pretrial release, he
was detained following his conviction, and the district
court denied his request for bail pending sentencing.
The district court also denied Diaz’s motions for a new
trial and for bond pending appeal.
On October 16, 2018, four months after Diaz had
lodged his appeal with this court, the district court, on
receiving the required financial information from Diaz,
amended its judgment to include restitution in the
amount of $3,374,409.16. Two months later in December 2018, Diaz moved this court for release pending appeal which was denied on January 28, 2019. The record
indicates that Diaz did not file a second notice of appeal after the district court amended its judgment to
include restitution.

App. 5
Diaz advances seven issues on appeal. We address
each in turn.
II.

Discussion

A. Sufficiency of the Evidence
Diaz challenges his convictions for conspiracy to
commit health care fraud or wire fraud, in violation of
18 U.S.C. § 1349, and substantive wire fraud, in violation of 18 U.S.C. §§ 1343 and 2. He also challenges his
convictions for obstruction of justice and conspiracy to
distribute a controlled substance outside the scope of
medical practice and not for a legitimate medical purpose.
“We review preserved challenges to the sufficiency
of the evidence de novo, but we are ‘highly deferential
to the verdict.’ ” United States v. Scott, 892 F.3d 791,
796 (5th Cir. 2018) (citation omitted). “When reviewing
the sufficiency of the evidence, we view all evidence,
whether circumstantial or direct, in the light most favorable to the government, with all reasonable inferences and credibility choices to be made in support of
the jury’s verdict.” Id. It is the province of the jury to
“weigh any conflicting evidence and to evaluate the
credibility of witnesses.” Id. at 797. We consider the
evidence “sufficient to support a conviction if ‘any rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt.’ ” Id.
(emphasis in original) (citation omitted). Our question is whether “the jury’s verdict was reasonable, not
whether we believe it to be correct.” Id.

App. 6
We have reviewed the voluminous record in this
case and conclude that sufficient evidence was presented at trial to support Diaz’s multiple convictions.
Id. The jury’s verdict was reasonable. Id.
B. Constructive Amendment
We conduct a de novo review of Diaz’s claim that
the government constructively amended the indictment. See United States v. Thompson, 647 F.3d 180, 183
(5th Cir. 2011). “[T]he two primary functions of an indictment are that it (1) provides notice of the crime for
which the defendant has been charged, allowing him
the opportunity to prepare a defense; and (2) interposes the public into the charging decision, such that a
defendant is not subject to jeopardy for a crime alleged
only by the prosecution,” meaning that he is protected
against subsequent prosecution for the same offense.
United States v. Robinson, 367 F.3d 278, 287 (5th Cir.
2004) (citations omitted). “A constructive amendment
occurs when the government changes its theory during
trial so as to urge the jury to convict on a basis broader
than that charged in the indictment, or when the government is allowed to prove an essential element of the
crime on an alternative basis permitted by the statute
but not charged in the indictment.” United States v.
Girod, 646 F.3d 304, 316 (5th Cir. 2011) (internal quotation marks and citation omitted). “Not all variations
between allegation and proof, however, rise to the level
of a constructive amendment and thus violate this
rule.” Thompson, 647 F.3d at 184.

App. 7
Although Diaz argues otherwise, nothing in the
evidence presented at trial or in the government’s closing argument modified an essential element of the offenses with which he was charged. On the health care
and wire fraud charges, the indictment alleged that
Diaz and others devised a scheme to defraud Tricare
for financial gain. The evidence established at trial,
and the government argued, that Diaz, Schaar, Thomley, and others agreed to issue medically unnecessary
compounded medication prescriptions to Tricare beneficiaries and submit those prescriptions for reimbursement to Tricare. The government’s statement that Diaz
was not compensated for his participation in the
scheme did not modify or expand the basis on which
the jury could convict him. Rather, it clarified that
Diaz’s personal financial gain was not required to
prove the charge that he conspired with others to commit health care fraud—a correct statement of the applicable law. See United States v. Ganji, 880 F.3d 760,
767 (5th Cir. 2018) (“To support a conviction under 18
U.S.C. § 1349, the Government must prove beyond a
reasonable doubt that: ‘(1) two or more persons made
an agreement to commit health care fraud; (2) that the
defendant knew the unlawful purpose of the agreement; and (3) that the defendant joined in the agreement . . . with the intent to further the unlawful
purpose.’ ” (citation omitted)).
On the obstruction of justice charges, the indictment alleged that Diaz falsified and backdated patient
records and submitted them to Tricare to cover up the
fact that he authorized the compounded prescriptions

App. 8
without examining any of the Tricare beneficiaries.
The evidence established at trial, and the government
argued, that Diaz coordinated with Schaar and Thomley to drive to Hattiesburg to examine the Tricare
beneficiaries for the purpose of creating falsified and
backdated patients records in response to the Tricare
audit. To the extent, if any, that the government relied
at trial on Diaz’s statements to investigators that he
had lied and falsified the records to cover up his participation in the scheme, this did not expand or modify
the factual basis upon which the jury was permitted to
convict on the obstruction of justice charges. Diaz’s
claims that the government constructively amended
the indictment fail. See Girod, 646 F.3d at 316.
C. Jury Bias
This court reviews a district court’s denial of a motion for a new trial on the basis of juror bias for abuse
of discretion. See United States v. Thomas, 627 F.3d
146, 161 (5th Cir. 2010). The Sixth Amendment guarantees criminal defendants the right to trial by an impartial jury. See Solis v. Cockrell, 342 F.3d 392, 395
(5th Cir. 2003). “A defendant may show either actual or
implied juror bias.” Thomas, 627 F.3d at 161. Actual
bias can be shown through admission or factual proof
and “exists when a juror fails to answer a material
question accurately because he is biased.” Id. (citation
omitted). “Juror bias may also be implied in ‘extreme
circumstances,’ as in ‘when the juror is employed by
the prosecuting agency, is a close relative of a participant in the trial, or is somehow involved in the

App. 9
transaction that is the subject of the trial.’ ” Id. (citation omitted).
After the jury instruction conference on the final
day of trial, a Court Security Officer informed the district court’s staff that Juror 1 was upset and crying
in the bathroom because she believed she had been
threatened by Diaz’s family. In response, the district
court sequestered Juror 1 from the rest of the jury and
began an inquiry. She ultimately stated that nobody
actually threatened her and that she had told the other
jurors that she felt “uncomfortable going out of the
courthouse” but she denied attributing her discomfort
to Diaz. The district court then excused Juror 1 from
jury service.
To determine whether the jury had been tainted,
the district court examined each juror under oath and
gave counsel for both sides an opportunity to question
each of them. In denying Diaz’s motion for a new trial,
the district court stated that after interviewing each
individual juror, he determined that
every other juror believed that Juror 1 was
paranoid and overreacted, and none of them
actually believed that [Diaz] or anyone associated with him had followed her, spoken to
her, or done anything to intimidate her. None
of the remaining jurors attributed Juror 1’s
discomfort to [Diaz] or anyone associated with
him, and each one affirmed under oath that
these events had no effect on their ability to

App. 10
be fair to each side and render an impartial
verdict.
The district court further declined to impute bias
to the jury noting that “[t]his case is wholly dissimilar
to ones where the Fifth Circuit has imputed implied
bias to a jury. None of the remaining jurors were employees of the prosecuting agency, close relatives of
anyone associated with the trial, or involved in the
criminal transactions that were the subject of the
trial.”
Diaz argues that Juror 1’s statements to the other
jurors created implied jury bias against him and violated his right to due process and trial by an impartial
jury. We disagree. The district court took adequate
steps to ensure that the jury that rendered the verdict
in Diaz’s case was not impliedly biased against him.
The district court ensured that Juror 1’s statements
and subsequent dismissal from the jury did not taint
the remaining jurors or jeopardize his right to a fair
trial. We agree with the government that, while the remaining jurors’ reassurances that they could be fair to
both sides is “not controll[ing]” under Brooks v. Dretke,
418 F.3d 430, 434 (5th Cir. 2005), it does support the
conclusion that this is not an “extreme situation” warranting a finding of implied juror bias. See Thomas, 627
F.3d at 161 (“Juror bias may also be implied in ‘extreme
circumstances,’ as in ‘when the juror is employed by
the prosecuting agency, is a close relative of a participant in the trial, or is somehow involved in the transaction that is the subject of the trial.’ ”). The district

App. 11
court did not abuse its discretion in denying his motion
for a new trial on this issue. See id. at 161.
D. Recordings
As noted, prior to Diaz’s trial, Schaar pled guilty
to conspiring to commit health care fraud and agreed
to cooperate with the government. At the government’s
request, Schaar recorded two conversations with Diaz
at his clinic in Biloxi. The first recorded conversation
between Schaar and Diaz took place in September
2016. In that conversation, Diaz discussed authorizing
compounded medication prescriptions without examining the patients first and falsifying patient records
to cover it up. In that recording, Diaz asks Schaar, “So
what’s your attorney saying?” Schaar also asks Diaz if
he had talked to his own attorney and Diaz replies that
his attorney “hadn’t heard anything” but did not go
into further detail about his communications with his
attorney. The second recording took place in Diaz’s office in late January 2017 after Diaz asked Schaar to
meet with him. During this conversation, Diaz showed
Schaar a text that he had received from his own attorney stating that IRS investigators wanted to interview
Diaz about the Tricare audit. Diaz told Schaar, “I’m not
gonna say that you filled out the [prescription] forms.”
Diaz further states, “You see cause I’m not, I’m not supposed to sign a prescription unless I’ve seen and examined the patient. And I signed the prescription without
seeing them.” Diaz then states to Schaar, “Don’t volunteer [Thomley’s name]. Don’t say anything, just answer
the questions and have an attorney cause if you don’t.

App. 12
Cause that will keep you out of trouble.” The district
court denied Diaz’s motions seeking to exclude the recordings. The district court also denied Diaz’s request
for an evidentiary hearing before trial and his subsequent motion for a new trial.
Diaz argues that the government violated his
Sixth Amendment right to counsel by directing Schaar
to record conversations he had with Diaz while Diaz
was represented by counsel. He also argues that, because he is alleging “prosecutorial misconduct” or “government misconduct,” the district court erred in not
holding an evidentiary hearing on the matter.
This court reviews constitutional claims, like Diaz’s
Sixth Amendment right to counsel claim, de novo. See
United States v. Hernandez, 633 F.3d 370, 373 (5th Cir.
2011). We review the district court’s denial of Diaz’s
request for an evidentiary hearing for abuse of discretion. See Thompson v. Davis, 916 F.3d 444, 455
(5th Cir. 2019). A governmental intrusion “through surreptitious electronic means or through an informant”
upon “the confidential relationship between a criminal
defendant and his attorney” violates the Sixth Amendment right to counsel. United States v. Zarzour, 432
F.2d 1, 3 (5th Cir. 1970). The Supreme Court held in
Rothgery v. Gillespie Cty., Tex., 554 U.S. 191, 198 (2008)
that the Sixth Amendment right to counsel attaches
when “prosecution is commenced.” There, the Court explained that commencement means “the initiation of
adversary judicial criminal proceedings—whether by
way of formal charge, preliminary hearing, indictment,
information, or arraignment.” Id. To prevail on a claim

App. 13
that the government has invaded the attorney-client
privilege, the defendant must establish that prejudice
resulted. See United States v. Davis, 226 F.3d 346, 353
(5th Cir. 2000); see also Weatherford v. Bursey, 429 U.S.
545, 558 (1977) (determining that there was no Sixth
Amendment violation where there was “no tainted evidence in this case, no communication of defense strategy to the prosecution, and no purposeful intrusion by
[the federal agent]”).
Mississippi Rule of Professional Conduct 4.2 provides that “[i]n representing a client, a lawyer shall not
communicate about the subject of the representation
with a party the lawyer knows to be represented by
another lawyer in the matter, unless the lawyer has
the consent of the other lawyer or is authorized by law
to do so.” MISS. CODE OF PROF’L CONDUCT R. 4.2. This
rule is common among many states and is often referred to as the “no-contact rule.” 28 U.S.C. § 530B(a)
provides that “[a]n attorney for the Government shall
be subject to State laws and rules, and local Federal
court rules, governing attorneys in each State where
such attorney engages in that attorney’s duties, to the
same extent and in the same manner as other attorneys in that State.” In the context of § 530B, however,
this court has determined that “[state bar] professional
disciplinary rules do not apply to government conduct
prior to indictment . . . and certainly do not apply to
the indiscretions of a non-attorney government informant.” United States v. Johnson, 68 F.3d 899, 902
(5th Cir. 1995).

App. 14
At the point in the investigation when the recordings took place in 2016 and 2017, Diaz had retained
counsel, but prosecution had not yet commenced. See
Rothgery, 554 U.S. at 198. Although the government
was in the investigatory phase, there had been no “initiation of adversary judicial criminal proceedings—
whether by way of formal charge, preliminary hearing,
indictment, information, or arraignment.” Id. The record indicates that a grand jury subpoena issued to Diaz
on October 5, 2017—approximately nine months after
the second (and last) recording took place. Thus, his
Sixth Amendment argument fails under Rothgery.
Moreover, as the district court notes, Diaz “misrepresented the factual record” by suggesting that Schaar
had “repeatedly” questioned him about attorney-client
privileged information when that was not true—
Schaar did not question Diaz as to any of his communications with his attorney and Diaz did not disclose
any such information.3 Consequently, because Diaz did
not disclose any privileged information, he would be
unable to establish prejudice. See Davis, 226 F.3d at
353; Weatherford, 429 U.S. at 558.
With respect to Diaz’s implications that the government violated Mississippi’s professional or ethical rules, specifically Mississippi Rule of Professional
3

The record reveals that Schaar stated, “Have you talk [sic]
to your attorney?” Diaz replied, “Yeah, I get a bill from him all the
time,” to which Schaar replied, “And he’s saying nothin’?” to
which Diaz responds, “[His attorney] hadn’t heard anything.”
There is no further questioning directed at Diaz from Schaar regarding Diaz and his attorney’s conversations.

App. 15
Conduct 4.2, there is no Fifth Circuit precedent holding that a government’s use of a coconspirator to record
conversations with a subject of investigation in a noncustodial, pre-indictment setting constitutes a violation of a state bar’s no-contact rule. Further, this court
has clarified that “professional disciplinary rules do
not apply to government conduct prior to indictment.”
See Johnson, 68 F.3d at 902.
Finally, the district court correctly determined
that there was no need for an evidentiary hearing prior
to trial because the issue of the recordings presented
legal questions, and Diaz had “not articulated any factual disputes” for the district court to resolve. See
United States v. Fields, 565 F.3d 290, 298 (5th Cir.
2009) (“We have held that ‘[t]he district court need not
hold an evidentiary hearing to resolve ineffective assistance claims where the petitioner has failed to allege facts which, if proved, would admit of relief. If, on
the record before us, ‘we can conclude as a matter of
law that [the petitioner] cannot establish one or both
of the elements necessary to establish his constitutional claim, then an evidentiary hearing is not necessary and we may affirm.’ ” (internal citations omitted)).
Although Diaz disputed the legal significance of the recordings, he did not, and could not, dispute their content. Thus, no factual dispute existed warranting the
district court’s consideration of his request for an evidentiary hearing and Diaz’s arguments to the contrary
are unavailing. See Fields, 565 F.3d at 298.

App. 16
E. Motion to Continue
On February 23, 2018, the Friday before trial, Diaz
orally moved to continue the trial arguing that the
government had recently disclosed information that
Schaar had been treated for substance abuse and mental health issues. Diaz also claimed that the government had recently disclosed a report that revealed that
Schaar said that other unidentified employees had
stamped the Advantage prescriptions. Diaz claimed he
needed to identify five additional witnesses to address
the stamp issue. The government opposed Diaz’s motion and the district court, after hearing from counsel
for both sides, denied the motion. Diaz argues on appeal that this was error. We do not agree.
This court reviews a district court’s denial of a motion to continue for abuse of discretion. See Squyres v.
Heico Cos., L.L.C., 782 F.3d 224, 236-37 (5th Cir. 2015).
“In reviewing the denial of a continuance, this court
looks to the ‘totality of the circumstances,’ including
(a) the amount of time available; (b) the defendant’s
role in shortening the time needed; (c) the likelihood of
prejudice from denial; (d) the availability of discovery
from the prosecution; (e) the complexity of the case;
(f ) the adequacy of the defense actually provided at
trial; and (g) the experience of the attorney with the
accused.” United States v. Walters, 351 F.3d 159, 170
(5th Cir. 2003).
Prior to Diaz’s oral continuance motion on February 23rd, the district court had granted two other continuance motions that he had filed. In denying Diaz’s

App. 17
third continuance motion the district court observed
that Diaz’s able and experienced attorneys had obtained a copy of Schaar’s original guilty plea colloquy
from July 2017 where he disclosed his substance abuse
issues, so they could not feign surprise four days before
trial as to their existence. As to Schaar’s mental health,
the district court commented that “being bipolar doesn’t
necessarily make someone incompetent” and regardless,
while Diaz may choose to more heavily cross-examine
Schaar on the issue, his condition was not a surprise to
the defense. The district court further observed that
the signature stamps could not have been a surprise
since Diaz had proffered a primary defense of not personally signing the prescriptions as far back as the previous August and the government sent discovery via
email on January 25th with copies of the stamped signatures on the prescriptions.
We conclude that the district court’s evaluation of
the continuance motion was proper. It considered the
“totality of the circumstances,” specifically addressing
Diaz’s prior knowledge of both issues that he argued
warranted the continuance, the experience and ability
of all defense counsel, and perhaps most significantly,
the low chance of prejudice to the defense in denying
the continuance given their prior knowledge of the issues relating to Schaar and the prescription stamps.
See Walters, 351 F.3d at 170. The district court did not
abuse its discretion in denying the continuance. See
Squyres, 782 F.3d at 237-38.

App. 18
F. Jury Instructions
Diaz argues that the district court’s decision to
give deliberate ignorance and aiding and abetting jury
instructions was erroneous. Both deliberate ignorance
jury instructions and aiding and abetting jury instructions are reviewed for abuse of discretion. See United
States v. Ricard, 922 F.3d 639, 654-55 (5th Cir. 2019)
(reviewing deliberate ignorance for abuse of discretion); United States v. Turner, 674 F.3d 420, 442 (5th
Cir. 2012) (reviewing aiding and abetting for abuse of
discretion). In conducting our review, we “ask whether
the court’s charge, as a whole, is a correct statement of
the law and whether it clearly instructs jurors as to the
principles of the law applicable to the factual issues
confronting them.” United States v. Martinez, 921 F.3d
452, 477 (5th Cir. 2019) (citation omitted). “A jury instruction must: (1) correctly state the law, (2) clearly
instruct the jurors, and (3) be factually supportable.”
United States v. Fairley, 880 F.3d 198, 208 (5th Cir.
2018). Specific jury instructions should be “considered
in the context of the instructions as a whole and the
trial record” and “not in isolation.” Id.
A deliberate ignorance instruction “inform[s] the
jury that it may consider evidence of the defendant’s
charade of ignorance as circumstantial proof of guilty
knowledge.” Ricard, 922 F.3d at 655. This instruction
“guards against a defendant who ‘choos[es] to remain
ignorant so he can plead lack of positive knowledge in
the event he should be caught.’ ” Id. (quoting United
States v. Lara-Velasquez, 919 F.2d 946, 951 (5th Cir.
1990)). “[A] deliberate ignorance instruction ‘should

App. 19
only be given when a defendant claims a lack of guilty
knowledge and the proof at trial supports an inference
of deliberate ignorance.’ ” Id. at 655-56 (citation omitted). An inference can be made that deliberate ignorance exists if there is evidence showing “(1) subjective
awareness of a high probability of the existence of illegal conduct, and (2) purposeful contrivance to avoid
learning of the illegal conduct.” Id. at 656.
“Aiding and abetting is not a separate offense,
but it is an alternative charge in every indictment,
whether explicit or implicit,” and a district court’s decision to give an aiding and abetting instruction will
not be reversed absent a showing of unfair surprise.
See Turner, 674 F.3d at 442. “To be convicted under
an aiding and abetting theory, the defendant must
‘share[ ] in the principal’s criminal intent’ and take
some affirmative steps ‘to aid the venture or assist[ ]
the perpetrator of the crime.’ ” Id. (citation omitted).
Further, he “must have aided and abetted each material element of the alleged offense[s].” Id.
Given Diaz’s statements to Schaar on the recordings (specifically the 2017 recording) that he would
pretend to know nothing of the scheme and advising
Schaar to do the same to keep himself “out of trouble,”
the deliberate ignorance instruction was appropriate.
Additionally, although Diaz claims that he believed the
prescriptions were “medically necessary” this does not
comport with his failure to examine the Tricare beneficiaries until he received notice of the audit—especially given his decades of experience as a physician.
The district court did not abuse its discretion in issuing

App. 20
the instruction. See Ricard, 922 F.3d at 654-55. Likewise, the aiding and abetting instruction was also
proper. “Aiding and abetting is not a separate offense,
but it is an alternative charge in every indictment,
whether explicit or implicit.” See Turner, 674 F.3d at
442. The district court instructed the jury consistently
with the indictment, which charged the specific offenses and aiding and abetting in the alternative under 18 U.S.C. § 2.
G. Restitution
Diaz does not dispute that the district court ordered an amount of restitution equal to the total loss
sustained by the Tricare, CVS Caremark, Express
Scripts, and Optum Rx. Instead, he complains that the
district court never considered his financial resources
or his earning capacity in determining his ability to
pay the ordered restitution. The government counters
that Diaz’s appeal of the restitution order should be
dismissed under Manrique because he failed to timely
file an appeal of the district court’s amended judgment
ordering restitution. See Manrique v. United States,
137 S. Ct. 1266, 1271 (2017).
“We review the quantum of an award of restitution
for abuse of discretion.” United States v. Sharma, 703
F.3d 318, 322 (5th Cir. 2012). This court may affirm “if
the record provides an adequate basis to support the
restitution order.” Id. The Mandatory Victim Restitution Act (“MVRA”) authorizes restitution to a victim
“directly and proximately harmed” by a defendant’s

App. 21
offense of conviction. See Sharma, 703 F.3d at 322
(quoting 18 U.S.C. § 3663A). Restitution awarded under the MVRA “is to compensate victims for losses,
not to punish defendants for ill-gotten gains.” Id. “An
award of restitution greater than a victim’s actual loss
exceeds the MVRA’s statutory maximum.” Id.
The district court sentenced Diaz to concurrent
terms of 42 months of imprisonment followed by a
three-year term of supervised release but deferred imposing restitution to a later date because Diaz had
failed to provide the financial information needed for
the court to make the calculation. Diaz noticed his appeal with this court on June 20, 2018. In denying Diaz’s
motion for release pending appeal, the district court
expressed its exasperation, noting that Diaz and his
counsel failed to provide sufficient information to enable the court to make a restitution finding and that
Diaz had professed ignorance even when faced with
such basic questions as whether he had any bank accounts at all. On October 16, 2018, four months after
Diaz had lodged his appeal with this court, the district
court, upon receiving the required financial information from Diaz, amended its judgment to include
restitution in the amount of $3,374,409.16, pursuant
to the MVRA. See 18 U.S.C. § 3663A. The total restitution amount was comprised of four subtotals to four
separate companies: (1) Tricare ($2,345,242.92); (2) CVS/
Caremark ($599,686.49); (3) Express Scripts ($419,236.44);
and (4) Optum RX ($10,243.31). Two months later in
December of 2018, Diaz moved this court for release
pending appeal which was denied on January 28, 2019.

App. 22
Diaz never filed a second notice of appeal after the district court amended its judgment to include restitution.
As the government argues, the Supreme Court has
recently held that “[t]he requirement that a defendant
file a timely notice of appeal from an amended judgment imposing restitution is at least a mandatory claimprocessing rule.” See Manrique, 137 S. Ct. at 1271 (citing
Greenlaw v. United States, 554 U.S. 237, 252-253
(2008)). The Supreme Court explained in Manrique
that “[u]nlike jurisdictional rules, mandatory claimprocessing rules may be forfeited ‘if the party asserting
the rule waits too long to raise the point.’ ” Id. at 1272.
If, however, properly raised “they are ‘unalterable.’ ” Id.
(noting that appellate court had a mandatory duty to
dismiss appeal where the government timely raised
petitioner’s failure to file a notice of appeal from the
amended judgment imposing restitution).
Here, Manrique appears to mandate that this
court dismiss Diaz’s appeal of the district court’s restitution order since he failed to notice an appeal from
the district court’s amended judgment imposing restitution. Id. at 1272. Even if Manrique did not require
dismissal of Diaz’s restitution claim on appeal, the district court’s restitution order is clearly supported by
the 27-volume record in this case. See United States v.
Mathew, 916 F.3d 510, 516 (5th Cir. 2019) (“The district
court must support ‘every dollar’ of a restitution order
with record evidence.”) (citation omitted). A review of
the record reveals that the dollar amounts listed by
the district court comport with, and do not exceed, the

App. 23
actual losses of the four named pharmacies, therefore,
the amounts are compliant with the MVRA’s statutory
requirements. See Sharma, 703 F.3d at 322. In other
words, “the record provides an adequate basis to support the restitution order.” Id.
III.

Conclusion

For the foregoing reasons, we affirm Diaz’s convictions, the district court’s denial of Diaz’s motion for a
new trial, and the district court’s amended judgment
and restitution order.

